AUDIT OF GRANT AGREEMENT:
Next Generation Equipment Committee Materially Complied with
Terms of the Grant Agreement




                             Report No. OIG-A-2013-012 | March 27, 2013
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                           Office of Inspector General



Memorandum
To:            William Bronte, Chairman, Executive Board, Next Generation Equipment
                 Committee

From:          David R. Warren
               Assistant Inspector General, Audits

Date:          March 27, 2013

Subject:       Audit of Grant Agreement: Next Generation Equipment Committee Materially
               Complied with Terms of the Grant Agreement (Report No. OIG-A-2013-012)

This report presents the results of our audit of the use of grant agreement funds
expended for Section 305 of the Passenger Rail Investment and Improvement Act of
2008 (PRIIA).1 This audit was performed at the request of the Amtrak Acting Chief
Financial Officer (CFO) and the Next Generation Equipment Committee (NGEC)
Finance Subcommittee Chairman.

Section 305 established a Next Generation Corridor Equipment Pool Committee,2
comprising representatives of the grantee (the National Railroad Passenger
Corporation), the Federal Railroad Administration, host freight railroad companies,
passenger railroad equipment manufacturers, interested states, and other passenger rail
operators such as commuter railroads.

The Committee received a total of $4 million to carry out its functions. According to
Amtrak’s financial records, total Committee expenditures during the audit period
(January 1, 2010 through September 30, 2012) amounted to $1,164,306. The grant
expense categories are shown in Appendix I. The functions of the Committee include:
(1) determining the number of different types of equipment required, taking into

1Division B of Public Law No. 110-432, 122 Stat. 4951-4952.
2The committee was established as of January 1, 2010, and is called the Next Generation Equipment
Committee.
                                                                                          2
                            Amtrak Office of Inspector General
           Audit of Grant Agreement: Next Generation Equipment Committee
                Materially Complied with Terms of the Grant Agreement
                       Report No. OIG-A-2013-012, March 27, 2013

account variations in operational needs and corridor infrastructure; (2) establishing a
pool of equipment to be used on corridor routes funded by participating states; and (3)
subject to agreements between Amtrak and states, utilizing services provided by
Amtrak to design, maintain, and remanufacture equipment. (See Appendix II for
additional background information on the grant agreement and the Committee.)

Our audit objectives were to determine whether the Committee (1) has complied with
the terms of the grant agreement, to include the propriety of grant expenditures; (2)
produced the deliverables contained in the grant provisions; and (3) has established
adequate internal controls to govern its activities.



SUMMARY OF RESULTS

The Committee materially complied with the criteria governing grant expenditures, met
the deliverables contained in the grant provisions, and has a generally sound system of
internal controls to govern its activities. However, we did identify a few relatively
minor instances, totaling $11,345, in unsupported or questioned costs for services billed
by one contractor. We also identified some opportunities to strengthen internal controls
to help reduce vulnerabilities to waste or abuse. These opportunities are in the areas of
support service agreement approval, timely review and payment of invoices, and
processing of grant reimbursement requests.

We are recommending that the Committee seek reimbursement for the questioned
costs, obtain documentation for the unsupported costs, and take action to improve
certain internal controls. The Amtrak Acting CFO and NGEC Finance Subcommittee
Chairman concurred with our recommendations.


Minor Unsupported and Questioned Costs

In reviewing the documentation supporting about $516,000 that the Committee
reimbursed the American Association of State Highway and Transportation Officials
(AASHTO) during the audit period, we identified relatively minor unsupported or
questioned costs of $11,345, in the areas of travel and other support service costs.
Specifically:
                                                                                                          3
                               Amtrak Office of Inspector General
              Audit of Grant Agreement: Next Generation Equipment Committee
                   Materially Complied with Terms of the Grant Agreement
                          Report No. OIG-A-2013-012, March 27, 2013

    Travel Costs. According to the grant agreement, the grantee’s travel costs are to
    comply with the provisions contained in Title 49, Code of Federal Regulations
    (CFR),3 as promulgated in Federal Travel Regulations published by the General
    Services Administration (GSA). In the following areas, travel regulations were not
    complied with:
     Unsupported costs. AASHTO could not provide supporting documentation, as
      required, for travel expenses totaling $8,729. According to the agreement with
      AASHTO, travel costs need to be supported by invoices or vouchers describing
      in detail the nature and propriety of the charges.
     Questioned costs. Nine instances in which the GSA hotel per diem geographical
      rate was exceeded [for example, a $289 charge for a hotel room in Philadelphia,
      compared with the GSA-approved daily rate of $143]. We also noted one
      instance for $150 in which alcohol served at a group dinner was included in the
      submitted expenses. Reimbursement for the costs of alcoholic beverages is not
      allowed by the travel regulations. We question total costs of $1,295.

    Other Support Service Costs—Employee Labor. According to the AASHTO
    agreement, work is performed on a cost-reimbursement basis. In the following areas,
    the agreement was not complied with:
     Questioned costs. The Committee was charged a higher hourly rate due to a bonus
      paid to an AASHTO employee. Bonuses are not authorized in the agreement
      between Amtrak and AASHTO; we question $803 in costs.
     Unsupported costs. Staff time was charged to the Committee in error, resulting in
      unsupported costs of $518. According to the agreement with AASHTO, all costs
      charged to the project need to be supported by properly executed payroll or time
      records.

The unsupported and questioned costs discussed above were related to the first two
AASHTO invoices received by the Committee in June 2010. Since that time, the quality
of Amtrak’s invoice reviews has improved, and we found no questioned or


349 CFR Part 19 and 48 CFR Chapter I, Subpart 31.2, “Contracts with Commercial Organizations,” 31.205-
46 (a) (2), states, “costs incurred for lodging, meals, and incidental expenses shall be considered
reasonable and allowable only to the extent that they do not exceed on a daily basis the maximum per
diem rates in effect at the time of travel as set forth in the Federal Travel Regulations, prescribed by the
General Services Administration, for travel in the conterminous 48 United States.”
                                                                                                        4
                              Amtrak Office of Inspector General
             Audit of Grant Agreement: Next Generation Equipment Committee
                  Materially Complied with Terms of the Grant Agreement
                         Report No. OIG-A-2013-012, March 27, 2013

unsupported costs in invoices submitted after that date. We likewise found no reason to
question Amtrak’s labor and travel costs or other contract costs.


Committee Internal Controls are Generally Adequate

The Committee’s financial and management controls over grant expenditure and
Committee responsibilities are generally adequate. However, we identified two minor
weaknesses in internal control processes surrounding grant administration that could
create vulnerabilities for the misuse or misallocation of funds. First, we found no
evidence that the Committee’s executive board reviewed and approved agreements
with support-service providers. The Committee entered into ongoing agreements with
AASHTO for approximately $1.5 million, plus approximately $500,000 for
subcontractor agreements.

Second, the Committee (Amtrak’s Finance Department)4 took longer than necessary to
pay AASHTO for support services. The payments were made an average of 7 months
after receipt of invoices (see Appendix III). Amtrak’s policy and best practice for
payment processes call for payment to be made within 30 days of invoice receipt.

We also noted that the Finance Department took longer than necessary to submit
requests for grant expenditure reimbursement to the Federal Railroad Administration
(FRA). The FRA request for reimbursement was submitted by the Finance Department
an average of 3 months after the date of the expenditure. The grant agreement specifies
that the grantee may initiate cash drawdowns when needed for immediate
disbursement required for project purposes. The Finance Department can more quickly
recover funds spent and improve cash flow by submitting reimbursement requests on a
monthly or bimonthly basis.




4Amtrak’s Finance Department and Office of Grant Administration are jointly responsible for reviewing
NGEC expenses, making NGEC payments, and filing required quarterly financial reports and grant
reimbursement requests.
                                                                                        5
                            Amtrak Office of Inspector General
           Audit of Grant Agreement: Next Generation Equipment Committee
                Materially Complied with Terms of the Grant Agreement
                       Report No. OIG-A-2013-012, March 27, 2013

RECOMMENDATIONS
We recommend that the NGEC Executive Board, working with the Amtrak Finance
Department, take actions to:

1. Seek reimbursement from AASHTO for the questioned costs and obtain
   documentation for the unsupported costs.

2. Formally approve all existing agreements and establish a policy for the review and
   approval of all future agreements. These actions should be documented by
   memorandum or reflected in meeting minutes.

3. Develop and implement a policy for paying contractors in a manner similar to
   Amtrak’s payment policy, which requires payment of invoices within 30 days of
   receipt.

4. Submit reimbursement requests to FRA within 30 days after paying for support
   services.



MANAGEMENT AND NGEC COMMITTEE COMMENTS AND
OIG ANALYSIS
In commenting on a draft of this report, the Amtrak Acting CFO and NGEC Finance
Subcommittee Chairman, stated that Amtrak management and the NGEC Executive
Board concurred with the report’s recommendations and will take the following
actions. Regarding recommendation 1, Amtrak Finance will work with AASHTO to
resolve the questioned costs and seek reimbursement as appropriate. For
recommendation 2, Amtrak Finance will work with the NGEC Administrative Task
Force and Executive Board to ensure that the Executive Board reviews and approves all
agreements and sub-agreements with support service providers such as AASHTO.
Regarding recommendation 3, Amtrak Finance will continue to work with AASHTO
and other support service providers to ensure that invoices submitted to Amtrak are
reviewed for allowable costs and paid in a timely manner. On recommendation 4, the
Amtrak Acting CFO and NGEC Finance Subcommittee Chairman, stated that while it is
Amtrak’s practice to submit reimbursement requests to FRA in conjunction with
quarterly financial reports, Amtrak Finance will speak to FRA to determine the
preference for or feasibility of submitting reimbursement requests more frequently.
                                                                                         6
                            Amtrak Office of Inspector General
           Audit of Grant Agreement: Next Generation Equipment Committee
                Materially Complied with Terms of the Grant Agreement
                       Report No. OIG-A-2013-012, March 27, 2013


The planned actions meet the intent of our recommendations. Consistent with our
standard process, we will follow up to assess the progress in implementing this report’s
recommendations.

The memorandum from the Amtrak Acting CFO and NGEC Finance Subcommittee
Chairman, commenting on the draft report, is reprinted in its entirety as Appendix IV.
                                                                                       7
                            Amtrak Office of Inspector General
           Audit of Grant Agreement: Next Generation Equipment Committee
                Materially Complied with Terms of the Grant Agreement
                       Report No. OIG-A-2013-012, March 27, 2013

                                          Appendix I

                         SCOPE AND METHODOLOGY

This report provides the results of our audit to determine if the Next Generation
Equipment Committee is in compliance with the terms of the grant agreement, to
include the propriety of grant expenditures. We performed our work from November
2012 through February 2013. According to Amtrak’s financial records, total Committee
expenditures during the audit period (January 1, 2010 through September 30, 2012)
amounted to $1,164,306, with approximately $2.8 million in funds remaining unspent.
The total amount requested and received from FRA in a series of nine reimbursement
requests was $1,046,456.

Table 1 shows the major expense categories.


                         Table 1: Committee Expenditures,
                             January 1, 2010 through
                                September 30, 2012
               Expense Category                              Amounta
                     AASHTO contract                         $516,000
                     Other contracts                          154,000
                     Amtrak labor                             491,000
                     Amtrak travel                              3,000
               Total                                       $1,164,000
               a
                   Amounts are rounded.
              Source: Amtrak Finance Department



We reviewed the grant agreement and 49 CFR to establish the criteria to be used in the
expenditure testing. We obtained and reviewed all Committee support-service
agreements. We included a review of the grant deliverables and determined whether
the Committee had met them. We reviewed $1,151,423 of the total grant expenditures of
$1,164,000 to validate and compared them with supporting documentation, including
AASHTO invoices, travel vouchers and supporting documents, and time records. We
also reviewed Amtrak’s time and travel expense records. We reviewed the prior year
                                                                                                       8
                              Amtrak Office of Inspector General
             Audit of Grant Agreement: Next Generation Equipment Committee
                  Materially Complied with Terms of the Grant Agreement
                         Report No. OIG-A-2013-012, March 27, 2013

Office of Management and Budget A-133 audit performed by BDO5 and determined
that there were no issues related to the grant included in the audit report.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Internal Controls
We reviewed NGEC financial and management controls. NGEC expenditures are
processed and paid using Amtrak’s accounting system and its Finance Department
resources. We performed and relied on substantive testing to determine if the grant
expenditures were supported and processed in a timely manner. Our substantive
analysis indicated that improvements had been made to the review of grant
expenditures. Through our testing we determined that internal controls are generally
adequate. We also reviewed the Committee’s management controls for carrying out its
responsibilities. We found them to be generally sound, with the minor exceptions noted
in this report.


Computer-Processed Data
To achieve the assignment’s objectives, we used computer-processed data contained in
Amtrak’s electronic records and accounts payable system of Committee-related
expenditures. This also included Amtrak employee time charges in the Time
Distribution Reports for Committee activities. We compared the expenditures in the
Amtrak financial system with those reported by the Committee’s Finance
Subcommittee. The data in the accounts payable and Time Distribution Reports systems
were not verified, but we consider the data sufficiently reliable for purposes of the audit
objectives. We note that Amtrak‘s financial statement audit for Fiscal Year 2012 showed
no significant deficiencies related to accounts payable.




5 BDO is the brand name of BDO USA, LLP, a U.S. professional services firm providing assurance, tax,
financial advisory, and consulting services.
                                                                                    9
                            Amtrak Office of Inspector General
           Audit of Grant Agreement: Next Generation Equipment Committee
                Materially Complied with Terms of the Grant Agreement
                       Report No. OIG-A-2013-012, March 27, 2013

Prior OIG Report
Amtrak OIG Report No. A-2012-001, Passenger Rail Investment and Improvement Act of
2008: Amtrak Has Made Good Progress but Continued Commitment Needed to Fully Address
Provisions, dated October 26, 2011 indicated Amtrak had established a Next Generation
Corridor Equipment Pool Committee and produced technical specifications for the next
generation train equipment, including the approved specifications for bi-level cars.
                                                                                      10
                            Amtrak Office of Inspector General
           Audit of Grant Agreement: Next Generation Equipment Committee
                Materially Complied with Terms of the Grant Agreement
                       Report No. OIG-A-2013-012, March 27, 2013

                                      Appendix II

                                 BACKGROUND

Section 305 of the Passenger Rail Investment and Improvement Act of 2008 (PRIIA)
(Division B of Public Law No. 110-432, 122 Stat. 4951-4952) requires the establishment of
a Next Generation Corridor Equipment Pool Committee. The Committee is now called
the Next Generation Equipment Committee (NGEC). The Committee was established
via grant agreement RPD01G2010. The original term of the grant agreement was July
15, 2010 through June 30, 2011. On August 19, 2011, the grantee (the National Railroad
Passenger Corporation [Amtrak]) executed Amendment 1 to the original agreement to
extend the term of agreement to March 31, 2012, to allow the Committee to continue to
spend the original $2 million grant. Congress appropriated an additional $2 million for
NGEC’s activities in the Department of Defense and Full-Year Continuing
Appropriations Act of 2011 (Pub. L. No. 112-10, H.R. 1473, April 15, 2011), bringing the
total grant amount to $4 million.

According to the Grant and Amendments No. 1 and No. 3, the Committee’s Finance
Subcommittee is required to arrange for periodic independent audits of the financial
records for the Committee, as appropriate. On September 19, 2012, Amtrak’s Acting
Chief Financial Officer, who is the Finance Subcommittee Chairman, requested that the
Amtrak Office of Inspector General conduct the first audit of the Section 305 grant
agreement funds, which covers the period of January 1, 2010 through September 30,
2012.

The Committee’s executive board contracted with the American Association of State
Highway and Transportation Officials (AASHTO) to provide services in support of the
Committee on a cost-reimbursement basis. AASHTO is a nonprofit, nonpartisan
association representing highway and transportation departments in the 50 states, the
District of Columbia, and Puerto Rico. It represents five transportation modes: air,
highways, public transportation, rail, and water. In addition to AASHTO services and
other service contracts, Amtrak employees who provide services to the Committee
directly charge their time and travel expenses to the grant.
                                                                                                11
                              Amtrak Office of Inspector General
             Audit of Grant Agreement: Next Generation Equipment Committee
                  Materially Complied with Terms of the Grant Agreement
                         Report No. OIG-A-2013-012, March 27, 2013

                                           Appendix III

                    AASHTO INVOICE PAYMENTS AND
                    FRA REIMBURSEMENT REQUESTS
         JANAUARY 1, 2010 THROUGH SEPTEMBER 30, 2012

                                                                                        # Days from
                                                                     Finance                 Invoice
                                                                     Department          Payment to
                                                           # Days    FRA                    Finance
                                         Date             Invoice    Reimburse-          Department
             AASHTO       AASHTO         AASHTO                to    ment                Request for
AASHTO         Invoice    Invoice        Invoice         AASHTO      Request                    FRA
Invoice #   Amount ($)    Date           Paid            Payment     Date            Reimbursement
SI006383     76,561.00    06/30/2010     09/17/2010            77    10/28/2010                   41
SI006397     42,423.00    06/30/2010     10/11/2010           101    10/28/2010                   17
SI007203     57,512.90    03/08/2011     01/11/2012           303    01/30/2012                   19
SI007204     48,420.87    01/28/2011     01/12/2012           344    05/11/2012                  119
SI008378     53,425.53    03/16/2012     06/20/2012            94    10/25/2012                  125
SI008377     49,717.79    03/16/2012     06/20/2012            94    10/25/2012                  125
SI007406     81,054.01    05/26/2011     06/20/2012           384    10/25/2012                  125
SI007869    106,792.90    08/30/2011     06/20/2012           290    10/25/2012                  125
                                               Average                    Average
 Total      $515,908.00                           Days        211            Days                87
                                                                          Average
                                       Average Months          7.0         Months                2.9
                                                                        Allowance
                                                                               for
                           Allowance for Processing                    Processing
                                            (Months)             1       (Months)                  1
                                Total Delay (Months)           6.0                               1.9
Source: Amtrak OIG analysis of data provided by the Amtrak Finance Department
                                                                     12
                      Amtrak Office of Inspector General
     Audit of Grant Agreement: Next Generation Equipment Committee
          Materially Complied with Terms of the Grant Agreement
                 Report No. OIG-A-2013-012, March 27, 2013

                             Appendix IV

COMMENTS FROM THE AMTRAK ACTING CFO AND NGEC
      FINANCE SUBCOMMITTEE CHAIRMAN
                                                                13
                 Amtrak Office of Inspector General
Audit of Grant Agreement: Next Generation Equipment Committee
     Materially Complied with Terms of the Grant Agreement
            Report No. OIG-A-2013-012, March 27, 2013
                                                                               14
                          Amtrak Office of Inspector General
         Audit of Grant Agreement: Next Generation Equipment Committee
              Materially Complied with Terms of the Grant Agreement
                     Report No. OIG-A-2013-012, March 27, 2013




                                  Appendix V

                            ABBREVIATIONS
AASHTO    American Association of State Highway and Transportation Officials

CFR       Code of Federal Regulations

FRA       Federal Railroad Administration

GSA       General Services Administration

NGEC      Next Generation Equipment Committee

OIG       Office of Inspector General

PRIIA     Passenger Rail Investment and Improvement Act of 2008
                                                                          15
                           Amtrak Office of Inspector General
          Audit of Grant Agreement: Next Generation Equipment Committee
               Materially Complied with Terms of the Grant Agreement
                      Report No. OIG-A-2013-012, March 27, 2013



                                  Appendix VI


                          OIG TEAM MEMBERS

Earl Hedges, Senior Director

Joseph Zammarella, Audit Manager

Michael Fruitman, Principal Communications Officer
                                                                                     16
                            Amtrak Office of Inspector General
           Audit of Grant Agreement: Next Generation Equipment Committee
                Materially Complied with Terms of the Grant Agreement
                       Report No. OIG-A-2013-012, March 27, 2013

            OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         The Amtrak OIG’s mission is to The Amtrak OIG’s
                             mission is to provide independent, objective oversight of
                             Amtrak’s programs and operations through audits,
                             inspections, evaluations, and investigations focused on
                             recommending improvements to Amtrak’s economy,
                             efficiency, effectiveness; preventing and detecting fraud,
                             waste, and abuse; and providing Congress, Amtrak
                             management and Amtrak’s Board of Directors with timely
                             information about problems and deficiencies relating to
                             Amtrak’s programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:     www.amtrakoig.gov/hotline
                             Phone:   800.468.5469
Congressional and            David R. Warren
Public Affairs               Assistant Inspector General, Audits
                             Mail:    Amtrak OIG
                                      10 G Street, N.E., 3W-300
                                      Washington, D.C. 20002
                             Phone:   202.906.4742
                             Email:   david.warren@amtrakoig.gov
